           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    ASSESSING THE APPLICATION
         CONTROLS FOR THE
 SOCIAL SECURITY ADMINISTRATION'S
             INTEGRATED
       DISABILITY MANAGEMENT
               SYSTEM

    March 2006     A-14-05-15064




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   March 23, 2006                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessing the Application Controls for the Social Security Administration’s Integrated
        Disability Management System (A-14-05-15064)


        OBJECTIVE
        Our objective was to assess the application controls for the Social Security
        Administration’s (SSA) Integrated Disability Management System (IDMS). The audit
        encompassed the three phases of the processing cycle (input, processing, and output)
        to ensure disability-related transactions are valid, properly authorized, and completely
        and accurately processed and reported.

        BACKGROUND
        SSA established the IDMS in 2002 as a central repository for disability information for all
        Title II and Title XVI beneficiaries. Its purpose is to enhance management of post-
        entitlement disability processing. This would include the medical continuing disability
        review (CDR) process and meeting the requirements set forth in the Ticket to Work
        legislation. 1 The IDMS provides online access to all disability-related information for a
        beneficiary’s or recipient’s work and earnings, Ticket to Work status, and data regarding
        pending and processed CDRs and expedited reinstatement actions. IDMS provides on-
        line access and integrates the following disability-related databases and systems:
        Disability Control File, Ticket Payment File, Earnings File, and the Employment Network
        payment system. SSA controls on-line access to IDMS through the use of specialized
        software.




        1
          Ticket to Work and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170, 113 Stat. 1860.
        (1999).
Page 2 - The Commissioner

Access Control Software

SSA uses eTrust® CA-Top Secret (Top Secret), a commercial access control software
package, to control employee access to IDMS and other production 2 mainframe
computer resources. Top Secret protects computer resources by identifying authorized
users and controlling their access capability via individual personal identification
numbers (PIN). The PIN is assigned as many profiles as the employee needs to
perform his or her job duties.

One of Top Secret’s primary mechanisms for controlling user access is the access
authorization profile. Profiles contain sets of common access authorizations referred to
as transaction identifications (ID) for groups of users. Access authorizations allow
specific data entry transactions and query capabilities for each computer screen.

Another mechanism for controlling access is via datasets. Datasets are groups of
related electronic files containing data and/or programs. Dataset access can be granted
to PINs or to profiles that permit the user to read, update, change, or delete the data or
programs stored in the files.

We identified 289 access authorization profiles assigned to 69,548 individuals with PINs
providing access to the IDMS application. Access authorization profiles are profiles that
are reviewed, approved, and administered by SSA’s Office of Systems Security
Operations Management (OSSOM). These profiles are most applicable to operational
positions, such as benefit authorizers, that are standard throughout SSA’s field
locations.

Concept of “Least Privilege”

SSA has incorporated the principle of “least privilege” as a standard in its Information
Systems Security Handbook (ISSH). In fact, the ISSH 3 states that controlling and
limiting access “…is the first line of defense in assuring the security, integrity and
availability of the Agency’s information systems and resources.” Least privilege is
defined as the practice of restricting a user’s access to data files, processing
capabilities, or type of access (such as, read, write, execute, delete) to the minimum
necessary to perform his or her job.

Since the 1997 audit of SSA financial statements, the related internal control report
contained a reportable condition related to information protection, which included the
Agency’s ability to effectively implement the concept of least privilege. During the 2005
audit, SSA’s financial statement audit contractor removed a reportable condition


2
 Production mainframe computer resources consist of files and datasets, software applications, and
programs that operate in SSA’s primary business operating environment.
3
    ISSH, Chapter 10, Systems Access Security, page 1 (September 2004).
Page 3 - The Commissioner

regarding security access authorizations. This decision was based on improved access
controls for eleven applications critical to the financial statements. To resolve the
reportable condition, SSA implemented (1) the Standardized Security Profile Project to
address programmer access issues, and (2) periodic reviews of Office of Operations
access authorizations based on least privilege. IDMS was not one of these critical
systems. However, SSA plans to expand its efforts to include non-critical systems in
the future. This report includes a review of not only programmer access, but also a full
review of access authorizations for all Agency components, including the Office of
Operations.

RESULTS OF REVIEW

We reviewed the significant input, processing, and output controls for the IDMS. While
we found many processing and output controls were strong and operating effectively,
we identified areas where input controls should be improved. We tested two areas of
input controls: input edits and system access. Our review determined that input edits
were effective, but system access needs to be strengthened.

Access Controls Need to be Strengthened

We found the following issues with access controls:

   •   Excessive Access was Granted to IDMS Data via Transaction IDs.
   •   Excessive Access to Production Datasets.
   •   Process for Bypassing Edits Lacks Adequate Controls.

                         Excessive access to IDMS data was granted via Top Secret
  Excessive Access       transaction IDs. Specifically, transaction IDs were assigned to
   was Granted to        Top Secret profiles that were not necessary for employees to
    IDMS Data via        perform their job responsibilities; thereby, resulting in excessive
   Transaction IDs       access. We found 84 of 289 IDMS Top Secret access
                         authorization profiles were assigned to 23,136 individuals who
were granted excessive access to the IDMS application and data. SSA’s policy of “least
privilege” requires access be limited to the “minimum necessary” to perform one’s job
responsibilities.

These access permissions allow (1) CDR establishment, (2) changes to medical data
and diary dates, and (3) changes to bank account and routing numbers for payments to
Employment Network vendors. Additionally, this level of access could result in
erroneous decisions regarding CDRs and Ticket to Work issues because of
inappropriate changes to the data.
Page 4 - The Commissioner

According to the ISSH, 4 it is the responsibility of management to determine and approve
the access needs of their employees. Changes to employees’ access are requested by
management via a profile access matrix, approved by the component security officer
(CSO) and delivered to the OSSOM staff for final authorization.

Security officers are responsible for the development, implementation, and
management of a security program within their organization. 5 Security officers also
administer the assignment of PINs, passwords and profiles to ensure employees have
access to only those system resources necessary to perform their assigned
responsibilities. 6 Some security officers need further guidance to (1) select and
properly assign appropriate transaction IDs to profiles, (2) adequately understand the
capabilities of the transaction IDs involved, and (3) adequately understand the job
requirements in their respective components for requesting appropriate access. For
example, in the Office of Hearings and Appeals (OHA) and the Office of the Chief
Actuary, security personnel inadvertently or unknowingly assigned transaction IDs that
provided the capability to update or modify data in IDMS, when query-only access was
all that was needed.

The 84 profiles with excessive access belonged to 10 SSA components. After
discussions with each of the CSOs, all agreed that access was excessive and eight
(OHA, Office of Disability Operations, Office of Disability and Income Security
Programs, Office of Disability and Supplemental Security Income Systems, Office of
International Operations, Office of Public Service and Operations Support, Office of
Quality Assurance, and Office of Telecommunications and Systems Operations)
initiated appropriate profile changes during our audit. We believe excessive access was
granted because of the following reasons.

      1. CSOs were not familiar enough with the IDMS application to properly
         assign update or query-only access. Several security officers stated that
         when they assigned access to the application, they allowed users to decide
         access levels, or they simply copied profiles from other components. Other
         CSOs stated they or their security staff simply did not have the in-depth
         knowledge of the application area to be able to assign the appropriate access
         levels.

      2. Inadequate review of Top Secret profiles. OSSOM staff reviews and approves
         all new or modified access authorization profiles before they are implemented.
         During its profile reviews, OSSOM staff did not detect or prevent the erroneous
         IDMS transaction IDs from being assigned.


4
    ISSH, Chapter 10, Systems Access Security, page 12 (September 2004).
5
    ISSH, Chapter 2, Security Officer Standards, page 1 (February 2001).
6
    ISSH, Chapter 2, Security Officer Standards, page 4 (February 2001).
Page 5 - The Commissioner

    3. Security officers did not always attend the Security Kickoff meetings. Two
       CSOs did not attend these security meetings or send an alternate. Security
       Kickoff meetings are held by CASB in conjunction with systems development
       staff to provide detailed security information and answer questions regarding
       security access to each application when either a new application is being
       released or when there are significant changes to an application. If the
       component will require access to the application, CSOs should be strongly
       encouraged to either attend all Security Kickoff meetings, or send an alternate.

    4. Thirty-eight of 57 IDMS transaction IDs in the Top Secret Resource List
       were not clearly identified as having “update” or “query-only” capability.
       SSA should ensure clear labeling of transaction IDs identifying the type of access
       they bear to help ensure excessive access is not erroneously granted.

  Excessive Access We identified 14 programmers and analysts in the Office of
                          Systems (OS) who had the “All” access designation within the
    to Production
                          Top Secret security software to IDMS datasets. The “All” access
       Datasets
                          designation allows users to create, delete and modify any of the
data contained within the datasets we reviewed. This level of access prevents SSA
from ensuring the integrity of IDMS because data could be inadvertently or intentionally
updated, changed, or deleted by unauthorized individuals. By allowing programmers
and analysts to have the "All" access designation, SSA is not conforming to Office of
Management and Budget (OMB) Circular No. A-130 Appendix III, Security of Federal
Automated Information Resources, 7 concept of least privilege or separation of duties.
As noted earlier, SSA has taken steps to remove programmer access to production
datasets for its critical systems, and plans to expand this process to other systems,
including IDMS, in the future.

SSA was unaware that these 14 programmers and analysts had update access. SSA
was unable to determine why this access occurred because this access had been in
existence for an indeterminate period of time. SSA should modify dataset access to be
“read only” and instruct staff to use SSA’s procedures for accessing production datasets
via the “Second $UserID” 8 process.

During the course of our audit, SSA began to modify the IDMS production dataset
access of these programmers and analysts to “read only” and implement the “Second
$UserID” process per our recommendation. SSA has not yet completed this process.



7
 OMB Circular No. A-130, Appendix III, Security of Federal Automated Information Resources,
section B(a)(2)(c).
8
 The Second $User ID procedure was developed to comply with the requirements of OMB Circular
No. A-130 by allowing application programmers temporary update access privileges to address system
anomalies.
Page 6 - The Commissioner

                       SSA’s Office of Employment Support Programs (OESP)
      Process for
                       processes payments to the Employment Network vendors under
    Bypassing Edits
                       the Ticket to Work program via the IDMS. The IDMS permits
    Lacks Adequate     authorized users to process payments that meet certain
       Controls        requirements as determined by Agency policy. However, if one
of the requirements is not met, IDMS will display a ticket payment edit when the user
attempts to input the data to the system. The presence of an edit message also
prevents further processing until the condition that created the edit message is rectified.
For example, IDMS normally will display an edit message and prevent further payment
processing when an employer was already paid for the timeframe requested or when
benefit payments have been suspended to the beneficiary or recipient for medical
reasons.

As part of its July 2005 software release, by request of the business owner, OS
programmed the capability for some Ticket payment edits to be bypassed.
Consequently, IDMS will now permit users whose PINs are listed in a particular dataset
to bypass three Ticket payment edits and allow further processing of payment requests
to Employment Network vendors under the following conditions:

     •   A Ticket payment request for a terminated Ticket.
     •   A Ticket payment for a milestone claim for a beneficiary who is not in current
         payment status.
     •   A Ticket payment for an outcome claim for a beneficiary who is still receiving
         benefits.

OESP staff sometimes has a legitimate business need to bypass these edits, such as
when data on the IDMS database is incorrect. As of September 8, 2005, six individuals
in OESP had the ability to bypass these three edits, and only five were in need of this
ability. 9 However, the dataset that controls who has the ability to bypass these edits
can be updated, changed, or modified at any time by seven individuals in OS.
Changes, updates, and modifications to this file are not captured, monitored, or tracked
through an audit trail. As a result, inappropriate individuals could be added to the file
and have the ability to bypass these edits. This level of access prevents SSA from
ensuring that erroneous, inaccurate or improper payments to Employment Network
vendors are not made. This occurred because SSA did not design the application with
the capability to make corrections or perform overrides.

While we understand the need for certain edits to be bypassed to process transactions
correctly, we believe SSA can mitigate the risks by implementing compensating
controls. To improve controls, SSA should remove “All” access to this dataset and
instruct staff to use SSA’s procedures for accessing production datasets via the


9
  We discovered that the sixth individual no longer worked for the component and consequently, no
longer needed access. SSA removed his access on September 14, 2005.
Page 7 - The Commissioner

“Second $UserID” process. If cost effective, SSA should modify the IDMS software to
achieve this functionality rather than modifying input controls using dataset access.

During the course of our audit, SSA has begun to modify the dataset access of these
programmers and analysts to “read only” and implement the “Second $UserID” process
per our recommendation. SSA has not yet completed this process.

CONCLUSION AND RECOMMENDATIONS
SSA needs to strengthen security access controls for the profiles that have excessive
access. Excessive access could result in erroneous decisions regarding CDRs and
Ticket to Work issues; erroneous, inaccurate or improper payments to Employment
Network vendors; and the loss of data. To establish proper security controls and
effectively implement the policy of least privilege, SSA needs to restrict authorized
employee access to that which is needed to perform assigned duties. SSA also needs
to improve security officers’ monitoring and oversight in the granting of access
throughout SSA.

We recommend SSA:

1. Remove excessive or inappropriate transaction IDs from those profiles identified as
   having excessive access.

2. Enforce the policy of least privilege by following existing policy and conducting more
   thorough reviews of security access matrices.

3. Strongly encourage CSOs (or their alternates) to attend those IDMS Security Kickoff
   meetings when access will be requested.

4. Ensure the labeling of IDMS transaction IDs in the Top Secret Resource List clearly
   identifies the type of access they bear, whether “update” or “query-only.”

5. Continue to ensure that programmer access to production datasets is controlled via
   the “Second $UserID” process.

6. If cost effective, SSA should modify the IDMS software to allow for ticket corrections,
   so that edits no longer need to be bypassed.
Page 8 - The Commissioner

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
CASB    Control Audit, and Security Branch
CDR     Continuing Disability Review
CSO     Component Security Officer
ID      Identification
IDMS    Integrated Disability Management System
ISSH    Information Systems Security Handbook
OESP    Office of Employment Support Programs
OHA     Office of Hearings and Appeals
OMB     Office of Management and Budget
OS      Office of Systems
OSSOM   Office of Systems Security Operations Management
PIN     Personal identification number
SSA     Social Security Administration
                                                                        Appendix B

Background
The online portion of the Integrated Disability Management System (IDMS) consists of
57 unique online screens on which users can establish a continuing disability review
(CDR), input CDR decisions, update medical and diary information, add or delete Ticket
assignments, initiate Ticket payments to Employment Network vendors, and change
Employment Network information, including bank routing numbers for vendors. The
IDMS contains data about disabled Title II beneficiaries and Title XVI recipients. IDMS
serves as a data repository for all disabled individuals receiving benefits or working
under the Ticket to Work incentives.

The IDMS is used in over 1,300 field offices nationwide, as well as Program Service
Centers, Regional Offices, Teleservice Centers, Offices of Hearings and Appeals, and
various Headquarters components, such as the Office of Disability and Income Security
Programs, Office of Quality Assurance, and Office of the Chief Actuary. Thousands of
SSA employees have some level of access to the IDMS—ranging from the ability to
query very limited IDMS information to the capability for establishing and updating a full
range of disability and employment data.

Concept of “Least Privilege”

The Office of Management and Budget (OMB) Circular No. A-130, Management of
Federal Information Resources, requires that agencies: (1) maintain and protect
individuals’ identifiable information and proprietary information in a manner that
precludes unwarranted intrusion upon personal privacy and violation of confidentiality;
(2) ensure agency personnel are trained to safeguard information resources;
(3) establish a level of security for all agency information systems commensurate with
the sensitivity of the information and the risk and magnitude of loss or harm that could
result from improper operation of the information system; and (4) ensure that only
authorized personnel have access to information systems.

OMB Circular No. A-130 also requires that agencies incorporate personnel controls,
such as separation of duties, least privilege, and individual accountability to ensure that
adequate security is provided for an agency’s major applications. Least privilege is
defined as the practice of restricting a user’s access to data files, processing
capabilities, or type of access (such as, read, write, execute, delete) to the minimum
necessary to perform his or her job. SSA has incorporated this principle as a standard
in its Information Systems Security Handbook (ISSH).

SSA’s Office of Systems Security Operations Management (OSSOM) staff, along with a
network of regional and Central Office component security officers (CSOs), have overall
responsibility to interpret, develop, and implement security policy. CSOs develop,

                                            B-1
implement, and manage the overall security program within their organizations,
specifically administration of access controls. According to the ISSH, 1 OSSOM staff
provides guidance and advises security officers in matters involving SSA’s security
program, establishes systems security policies and procedures, and administers the
profile access authorization matrices.

SSA management has the overall responsibility to determine and approve the access
needs of SSA employees. As part of this responsibility, management requests changes
to employee access via the profile access authorization matrix to accommodate new
developments or changes in circumstances. Changes to the profile access
authorization matrices are reviewed and approved by the CSO and delivered to the
OSSOM staff for final authorization. The types of profile changes that CSOs may
request are:

      •   establishing a new profile for an employee position;

      •   adding a newly developed transaction identification (ID) to the profile access
          matrix;

      •   modifying an existing profile to add or remove a transaction ID; and

      •   deleting an existing profile.


SSA’s Office of Systems’ Control Audit, and Security Branch (CASB) makes
recommendations on security, audit, and internal control issues for all SSA
programmatic systems, including IDMS, ensures security standards are implemented,
and leads reviews of programmatic processes and systems to identify security
weaknesses. CASB validates and verifies matrices to ensure the requested access
matches the access that is granted.




1
    ISSH, Chapter 10, Systems Access Security, page 2 (September 2004).

                                                  B-2
                                                                     Appendix C

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the applicable laws and Social Security Administration (SSA) regulations,
    rules, policies, and procedures.

•   Reviewed 289 Top Secret access authorization profiles for the granting of access to
    the Integrated Disability Management System (IDMS). This included reviews of the
    Ticket to Work and Continuing Disability Review application profiles.

•   Reviewed access to IDMS datasets and identified all PINs and profiles having
    excessive access.

•   Reviewed the names for 57 transactions IDs listed in the Top Secret Resource List
    for the CDR and Ticket to Work applications.

•   Interviewed SSA personnel in Headquarters components, including:

       −   Office of the Chief Actuary,
       −   Office of Disability and Income Security Programs,
       −   Office of Finance, Assessment and Management,
       −   Office of Operations,
       −   Office of Policy, and
       −   Office of Systems.

•   Interviewed field office and program service center employees in Towson and
    Woodlawn, Maryland to ascertain user satisfaction and identify ongoing problems
    with the IDMS.

•   Reviewed SSA’s process for resolving, tracking, and monitoring the IDMS alerts in
    field offices.

Online Testing Environment

We tested 179 IDMS controls through online testing techniques. These techniques
consisted of entering test transactions into a computer environment especially designed
for audit testing purposes. The test system, created by SSA in June 2005, was
separate and distinct from SSA’s production mainframe system and was located on an
isolated mainframe within SSA that had partial copies of production software and data.
We conducted our testing between June 21 and August 4, 2005.


                                           C-1
We developed our online tests based on established controls that were intended to be
programmed in the system according to the system’s detailed functional requirements,
as well as on programmed controls that should exist to ensure actual results are
achieved in accordance with overall SSA policy.

We performed our audit at Headquarters in Woodlawn, Maryland, and field locations
listed above between April and October 2005. We conducted our audit in accordance
with generally accepted government auditing standards.




                                         C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 9, 2006                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Assessing the Application Controls for the
           Social Security Administration's Integrated Disability Management System" (A-14-05-15064) –
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ASSESSING THE CONTROLS FOR THE SOCIAL SECURITY
ADMINISTRATION'S INTEGRATED DISABILITY MANAGEMENT SYSTEM
(IDMS)" (A-14-05-15064) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report. We appreciate the
comprehensive analysis demonstrated in this audit and take no issue with the findings. SSA takes
very seriously our security responsibilities. We appreciate that the report makes note that
components initiated appropriate profile changes during the course of the audit. In an effort to
ensure compliance with the principle of "Least Privilege," we have initiatives underway to
restructure the components' security profiles.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Remove excessive or inappropriate transaction IDs from those profiles identified as having
excessive access.

Response:

We agree. To that end, several initiatives have been completed or are underway. For example, a
revised matrix was submitted by the Deputy Commissioner for Operations (DCO) to correct the
DCO profiles identified during the course of the audit. The Office of Systems Security
Operations Management (OSSOM) continues to work with the Deputy Commissioner for
Disability and Income Security Program's (DCDISP) Security Officer to ensure that the Ticket to
Work program is adequately secured, including restricting user access in conformance to the
contract and the principles of "need to know" and "least privilege."

Recommendation 2

Enforce the policy of least privilege by following existing policy and conducting more thorough
reviews of security access matrices.

Response:

We agree. As noted in the report, Agency policy restricts user access to SSA information
systems based on the principles of “need to know” and “least privilege.” To ensure compliance
with Agency policy, OSSOM under the direction from the Chief Information Officer instructed
managers working in concert with their component security officer (CSO) to review employee
access to SSA systems at least once every three years, as well as when there is a change in
employee job function or a change to a given application. This review will take place this fiscal
year as a part of the Federal Information Security Management Act of 2002 compliance.




                                               D-2
Recommendation 3

Strongly encourage Component Security Officers (CSOs), or their alternates, to attend those
IDMS Security Kickoff meetings when access will be requested.

Response:

We agree. Consistent with Agency policy, CSOs and their alternates are expected to be
entrenched in the life cycle development of Agency projects and applications, including
participating in security kickoff meetings as discussed in the "Information Security Handbook"
and echoed in the "Project Resource Guide" and the revised "Component Security Officer"
guide.

Recommendation 4

Ensure the labeling of IDMS transaction IDs in the Top Secret Resource List clearly identifies
the type of access they bear, whether “update” or “query-only.”

Response:

We agree. The Top Secret Resource List will be updated through our efforts to implement
recommendations 1 and 2.

Recommendation 5

Continue to ensure that programmer access to production datasets is controlled via the “Second
$UserID” process.

Response:

We agree. The Office of Systems scrutinized the batch profiles with remaining programmer
access to production datasets. The "ALL" access has been removed from Primary $UserIDs and
has been added to Second $UserIDs for a limited number of programmers.

Recommendation 6

If cost effective, SSA should modify the IDMS software to allow for ticket corrections so that
edits no longer need to be bypassed.

Response:

We agree. The Office of Systems has updated, at DCDISP's request, the enhanced payment file
that over-rides certain Employment Network (EN) Payment edits to limit access to designated
Office of Employment Support Programs (OESP) users. The OESP Ticket/Disability Control
File Program Advisor verifies the appropriateness of access for those persons who continue to
have that access. Ticket to Work payment functionality has been improved significantly over the


                                               D-3
last calendar year. However, some cases remain that must be handled manually by OESP
because of previous system limitations. The Agency will continue to work to improve processes
in order to limit the need for this access. At the present time, the Information Technology
Advisory Board (ITAB) has determined that it would not be cost effective to make significant
changes to the EN Payment automation process. However, we are planning for an
implementation to enhance EN Payments in Fiscal Year 2007. This will provide an opportunity
to revisit the access issues presented in this recommendation.




                                             D-4
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audits Division, (410) 965-9702

   Albert Darago, Audit Manager, Application Controls Branch (410) 965-9710

Acknowledgments

In addition to those named above:

   Anita McMillan, Auditor-in-Charge

   Greg Thompson, Senior Auditor

   Ron Anderson, Auditor

   Cheryl Robinson, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-05-15064.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
